<html>
<title> - OVERVIEW OF U.S. POLICY TOWARDS HAITI PRIOR TO THE ELECTIONS</title>
<body><pre>[Senate Hearing 114-795]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-795
 
      OVERVIEW OF U.S. POLICY TOWARDS HAITI PRIOR TO THE ELECTIONS

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON WESTERN HEMISPHERE
                TRANSNATIONAL CRIME, CIVILIAN SECURITY,
                      DEMOCRACY, HUMAN RIGHTS, AND
                         GLOBAL WOMEN'S ISSUES

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 15, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
       


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
                   U.S. GOVERNMENT PUBLISHING OFFICE
                   
 29-841 PDF                  WASHINGTON : 2018      

                 
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001        
  
  
  


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                 Lester Munson, Staff Director        
           Jodi B. Herman, Democratic Staff Director        
                    John Dutton, Chief Clerk        

                         ------------          

               SUBCOMMITTEE ON WESTERN HEMISPHERE        
            TRANSNATIONAL CRIME, CIVILIAN SECURITY,        
                  DEMOCRACY, HUMAN RIGHTS, AND        
                     GLOBAL WOMEN'S ISSUES        

                 MARCO RUBIO, Florida, Chairman        

JEFF FLAKE, Arizona                  BARBARA BOXER, California
CORY GARDNER, Colorado               TOM UDALL, New Mexico
DAVID PERDUE, Georgia                TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts

                             (ii)          

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hon. Marco Rubio, U.S. Senator From Florida......................     1
Hon. Barbara Boxer, U.S. Senator From California.................     3
Thomas C. Adams, Special Coordinator for Haiti, U.S. Department 
  of State, Washington, DC.......................................     4
    Prepared statement...........................................     5

              Additional Material Submitted for the Record

Responses of Thomas C. Adams to Questions Submitted by Senator 
  Bob Corker.....................................................    17
Letter From Frederica S. Wilson Submitted by Senator Marco Rubio.    19

                                 (iii)

  


      OVERVIEW OF U.S. POLICY TOWARDS HAITI PRIOR TO THE ELECTIONS

                              ----------                              


                        WEDNESDAY, JULY 15, 2015

        U.S. Senate, Subcommittee on Western Hemisphere, 
            Transnational Crime, Civilian Security, 
            Democracy, Human Rights, and Global Women's 
            Issues, Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Marco Rubio 
(chairman of the subcommittee) presiding.
    Present: Senators Rubio, Gardner, Perdue, and Boxer.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. The hearing will come to order. The hearing 
today is intended to provide the committee with an overview of 
U.S. policy toward Haiti prior to the upcoming elections in 
August. We have one witness from the administration today, 
which is the Hon. Thomas Adams, the special coordinator for 
Haiti.
    Mr. Adams was named special coordinator in 2010, and his 
career in the United States Government has spanned 35 years, 
with much of it focused on managing foreign assistance. I would 
like to thank Mr. Adams in advance for the testimony he will 
provide us today.
    The hearing will focus on a review of U.S. resources, 
priorities, and programs currently underway in Haiti and look 
at some of the challenges that are currently facing the Haitian 
people in the runup to the elections. Haiti has struggled to 
overcome its centuries' long legacy of authoritarianism, 
extreme poverty, and underdevelopment.
    On January 12, 2010, Haiti was struck by a massive 
earthquake that devastated much of the capital of Port-au-
Prince. Although Haiti is recovering, poverty remains massive 
and deep, and economic disparities wide. It continues to be the 
poorest country in the Western Hemisphere. And yet Haitians 
that have immigrated to the United States have demonstrated the 
ability to assimilate and to prosper.
    In South Florida where I live, the Haitian-American 
community has established small businesses and investments as 
well as elected numerous Haitian-Americans to local and state 
office, including the current chairman of the Miami-Dade County 
Commission.
    Unfortunately, today in Haiti the conditions of this type 
of success have not been present. I was frustrated by the 
suspension of the October 26 elections in Haiti last year. And 
the announcement by President Martelly that he would rule by 
decree was very concerning to me.
    With the scheduling of the first round of Haitian elections 
for August 8, I am now cautiously optimistic that a new 
democratically elected government will be inaugurated. 
Elections in Haiti have usually been a source of increased 
political tensions and instability. Many Haitians are skeptical 
that the polling will take place as scheduled, which could lead 
to further unrest.
    There is still much to be accomplished in the 
democratization of Haiti. Some parts of the government are not 
fully independent. The judicial system remains weak, and 
corruption and political violence still threaten the nation's 
stability.
    Haitian governance capacity is already limited or 
considerably diminished by the earthquake, and it is my hope 
that a free and fair election in Haiti will lead to a 
government that is responsive to the Haitian people. But there 
are other concerns beyond elections.
    Americans have donated millions of dollars to Haiti toward 
recovery from the 2010 earthquake, and the U.S. Government has 
provided more than $6 billion in aid. While there is no 
question that Haiti has improved in the last 5 years, recent 
reports that private and public aid has been mismanaged are 
incredibly disturbing.
    The simple question is, How is the aid for the recovery and 
reconstruction been spent? Where has the money been spent? Has 
the Haitian population benefited from the massive amount of 
worldwide aid aimed at helping Haiti recover and prosper?
    Currently, thousands of Haitians and Dominicans of Haitian 
descent living in the Dominican Republic face possible 
expulsion due to a recent Dominican court ruling. I am 
concerned that a possible mass migration between these two 
countries will create a humanitarian crisis, which Haiti lacks 
the resources to cope with.
    My office has been in contact with the State Department on 
this issue and has continued to receive regular updates to 
ensure human rights are protected.
    The United States is one of Haiti's principal trading 
partners, almost 84 percent of Haitian exports went to the 
United States in 2013. Florida has the largest number of people 
of Haitian heritage in the United States. Well over 250,000 
Haitians call Florida home.
    U.S. trade preferences for Haiti have contributed to some 
32,000 jobs in the apparel sector. According to USAID, U.S. 
programs have helped over 70,000 farmers increase their crop 
yields, doubled agricultural incomes for certain crops, and 
provided over 54,000 agricultural loans to increase access to 
credit for small and medium enterprises.
    I believe Haiti is of vital interest to Florida, to the 
United States, and to the entire Western Hemisphere. When Haiti 
is stable and prosperous, America benefits. When Haiti is 
unstable, unsecure, and lacking opportunities for its people, 
it creates vacuums where criminal gangs or worse can operate 
and that could lead to migratory pressures in the United States 
or disastrous and deadly tragedies on the high seas.
    I would also like to enter into the record a letter from 
Congresswoman Frederica Wilson, my friend from Florida. She 
represents the district with the largest Haitian population in 
the United States.

[Editor's note.--The letter from Congresswoman Frederica Wilson 
mentioned above can be found in the ``Additional Material 
Submitted for the Record'' section at the end of this hearing.]

    Senator Rubio. And with that, I will recognize the ranking 
member, Senator Boxer of California.
    I look forward to continue to work with you on these 
important issues that affect the Haitian people.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Mr. Chairman, thank you so much. And thank 
you for holding this important hearing.
    First, I do want to welcome our distinguished witness, Mr. 
Thomas Adams, our special coordinator for Haiti.
    Sir, I want to thank you very much for your service.
    Since the tragic earthquake in 2010 that killed more than 
230,000 people and injured more than 300,000--it is hard to 
even imagine those numbers--the nation of Haiti has continued 
to struggle. According to Oxfam International, the earthquake 
left more than 1.5 million people homeless, and the Haitian 
Government found itself completely unprepared to deal with the 
resulting humanitarian crisis.
    In the wake of the earthquake, the United States undertook 
a major effort to provide urgently needed assistance. Since 
2010, this commitment, I am proud to say, has amounted to more 
than $4 billion and has provided both humanitarian aid as well 
as long-term assistance to help support the nation's governance 
and development.
    But I do want to say I have major concerns. Nearly 80,000 
people still live in tents that were erected as short-term 
emergency housing after the earthquake more than 5 years ago. 
They are still in tents. Nationwide, 59 percent of the 
population live below the poverty line. And according to USAID, 
unemployment is almost at 40 percent in Haiti.
    It is clear that long-term assistance is important and 
still needed as the recovery has been slowed by the inability 
of the Haitian Government to hold elections that are 4 years 
overdue. And I want to add my concern about that. A full two-
thirds of the seats in the Haitian Senate have expired and are 
sitting vacant. These unfulfilled seats have made it extremely 
difficult for the government to function. And in this void, the 
current President is ruling by decree. This is a troubling step 
backward for Haiti.
    It is clear that the planned elections for August and 
October represent an important tipping point for Haitian 
democracy, and I am sure the chairman and I and members of this 
committee are going to follow this very, very carefully.
    Today's hearing is an important opportunity for us to 
examine the current situation in Haiti, particularly the 
upcoming elections, and help us chart a path forward to support 
the Haitian people and their democratic aspirations.
    Thank you.
    Senator Rubio. Thank you, Senator Boxer.
    And with that, Mr. Adams, I will recognize you for your 
opening remarks.

 STATEMENT OF THOMAS C. ADAMS, SPECIAL COORDINATOR FOR HAITI, 
            U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Adams. Thank you very much. Mr. Chairman, Ranking 
Member Boxer, and Senator Perdue, thank you very much for the 
opportunity to appear before you to discuss the U.S. 
Government's engagement with Haiti, including efforts related 
to the upcoming elections. I welcome the chance to provide a 
brief overview of where we are, to describe next steps, and to 
answer your questions. With your permission, I would like to 
submit my written testimony for the record, and just deliver a 
few very brief remarks.
    At the outset, I would like to thank Congress for the 
sustained support it has shown. The Senate and House are 
invaluable partners in Haiti's recovery. The assistance funds 
that have been appropriated are a tangible demonstration of the 
U.S. commitment to Haiti. No less important has been Congress' 
sustained and bipartisan attention in encouraging steps in 
Haiti's democratic development. We encourage congressional 
visits to Haiti to see firsthand what U.S. assistance is 
accomplishing there.
    So where do things stand in our efforts? Unquestionably, 
there is still much to be done. Even before the earthquake, 
Haiti faced enormous economic and political challenges. 
Development work there is not easy. There are no quick fixes or 
shortcuts. And despite having fallen short of our original 
objectives in certain cases, we can nevertheless credit U.S. 
assistance for positive and lasting developments in Haiti.
    Our funding helped house more than 328,000 earthquake-
displaced stations. Almost 95 percent of displaced persons have 
left the tent camps, which are all but gone. Nearly half of all 
Haitians have access to basic health services at U.S.-supported 
health facilities. And we provided $95 million for cholera 
treatment and prevention, including clean water and sanitation 
activities.
    The United States has also helped Haiti increase 
agricultural productivity. As of July 2015, in just 3 years of 
operation, approximately 7,500 jobs have been created at the 
Caracol Industrial Park. More jobs are expected as facilities 
expand.
    Security in Haiti has significantly improved. Violent crime 
rates, in particular kidnappings, are down dramatically 
compared to past years.
    We are following very closely the situation along Haiti's 
border with the Dominican Republic. We are concerned by reports 
from the Dominican Republic that tens of thousands of people, 
mostly Haitians and people of Haitian descent, have crossed the 
border from the Dominican Republic into Haiti since June 17. We 
are monitoring the situation closely and actively engaging with 
the Government of the Dominican Republic, the Government of 
Haiti, the United Nations High Commissioner for Refugees, the 
Organization of American States, civil society organizations, 
and the international community, to confirm that the 
appropriate authorities work to ensure the security of all who 
cross the border and the protection of their human rights.
    The United States is also funding civil society 
organizations, international organizations, including the 
International Organization for Migration, to assist in these 
efforts. We continue to encourage the governments of the 
Dominican Republic and Haiti to consult and collaborate with 
each other and with civil society groups and international 
organizations to develop processes that uphold the rule of law, 
provide procedural safeguards, and are consistent with each 
country's international obligations and commitments.
    Haiti's leaders must strive for a political, economic, and 
societal climate that fosters economic development and 
prosperity. An indispensable step toward this involves the 
holding of successful parliamentary, local government, and 
Presidential elections. The United States strongly supports the 
right of all Haitians to go to the polls in a timely manner to 
express their views through a credible and transparent process.
    Congress shares this goal with the administration, and I 
thank you for consistently emphasizing the importance of 
Haitians voicing their democratic preferences at the ballot 
box.
    The United States commends President Martelly and members 
of Haiti's independent electoral council for their efforts to 
prioritize the holding of elections this year. We are committed 
to working with the Government of Haiti and its international 
partners to facilitate appropriate assistance, including 
international observation, to help ensure that the elections 
are inclusive, transparent, and credible. As electoral planning 
continues, the United States supports the OECD, the U.N., the 
OAS, and the Government of Haiti in their efforts to coordinate 
and execute successful 2015 elections.
    We encourage all actors to participate fully in the 
electoral process, to abide by the rule of law, and to adhere 
to accepted standards of transparency.
    Let me stress that the United States has no vote in these 
elections. It does not support any candidate or group of 
candidates.
    Finally, to be sure, it will take many more years to make 
that kind of far-reaching and lasting improvements we all wish 
to see in Haiti. The past 5 years have been marked by 
measurable improvements in the lives of Haitians and genuine 
accomplishments in Haiti's recovery and development. Much will 
depend on building political stability through successful 
democratic elections. But I continue to believe, through our 
long-term commitment, the United States is helping Haitians 
achieve a better future.
    Thank you very much.
    [The prepared statement of Mr. Adams follows:]

                 Prepared Statement of Thomas C. Adams

    Mr. Chairman, Ranking Member Boxer, members of the committee, thank 
you for the opportunity to appear before you to discuss the U.S. 
Government's engagement with Haiti, including efforts related to its 
upcoming elections. I welcome the chance to provide a brief overview of 
where we are, to describe next steps, and to answer your questions.
    The broad and deeply rooted ties that link the United States and 
Haiti operate at the institutional, familial, and personal levels. In 
every state you will find individuals or groups, nongovernmental 
organizations, faith groups, schools or medical teams, committed--
through training, visits, fund-raising, sponsorships, onsite 
assistance--to helping Haitians better help themselves. In the wake of 
the devastating January 2010 earthquake, an estimated one out of two 
U.S. households made some contribution to relief efforts for Haiti. 
Congress likewise was quick to respond to urgent and longer term needs. 
Thanks to consistent, broad, bipartisan support on the Hill, U.S. 
Government assistance to Haiti has been substantial; since the 
earthquake, $4.1 billion has been made available.
    There is significant progress to report in Haiti, which I will 
describe shortly. At the outset, I would like to thank Congress for the 
sustained support it has shown. The Senate and House are invaluable 
partners in Haiti's recovery. The assistance funds which have been 
appropriated are a tangible demonstration of the United States 
unwavering commitment to Haiti. Of that $4.1 billion total, 80 
percent--$3.3 billion--has been disbursed to date. Immediate 
humanitarian assistance following the earthquake totaled $1.3 billion 
and has been disbursed in full. Approximately $2.8 billion has been 
made available for long-term reconstruction and development, and of 
this, some 71 percent--$2 billion--has been disbursed to date. No less 
important has been Congress' sustained attention in encouraging steps 
in Haiti's democratic development. We encourage congressional visits to 
Haiti to see firsthand what U.S. assistance is accomplishing.
    Our engagement with Haiti has involved both near term and longer 
term goals. Having helped address Haiti's immediate humanitarian needs 
in the wake of the earthquake, the United States now directs attention 
and resources to the country's longer term development, working in 
partnership and through a Haitian-led process to help the country build 
a more promising future for its citizens.
    Where do things stand in these efforts? Unquestionably, there is 
still much to be done. Even before the earthquake, Haiti faced enormous 
economic and political challenges. Development work there is not easy; 
there are no quick fixes or shortcuts. There are areas in which we all, 
Haitians and Americans both, hoped we would be further along by now. 
There are projects which did not attain the results initially expected 
and based on lessons learned we have made course corrections. For 
example, we shifted from building a new port to rehabilitating the 
existing port at Cap Haitien, and we shifted from building houses to 
providing technical assistance and financial products that will enable 
Haitians to build and improve their own homes. Despite having fallen 
short of our original objectives in certain cases, we can nevertheless 
credit U.S. assistance for positive and lasting developments in Haiti. 
But we are not finished.
    Since 2010, U.S. post-earthquake assistance to Haiti has helped to 
measurably improve key economic and social indicators and build 
infrastructure necessary for self-sustaining growth. Our funding helped 
house more than 328,000 earthquake-displaced Haitians by providing 
transitional shelters, repairs to damaged homes, support to host 
families, and rental vouchers. Almost 95 percent of displaced persons 
have left the tent camps, which are all but gone. We have funded the 
removal of some 2.7 million cubic meters of earthquake rubble--36 
percent of the estimated 7.4 million cubic meters of total rubble 
removed.
    Our support for Haiti's infrastructure includes the reconstruction 
of Haiti's University Hospital and other damaged health facilities, and 
the construction of seven police stations and the Presidential security 
unit barracks. Nearly half of all Haitians have access to basic health 
services at U.S.-supported health facilities, and we have provided $95 
million for cholera treatment and prevention, including clean water and 
sanitation activities. This has led to improved basic health indicators 
and a dramatic decrease in the incidence of cholera.
    The United States has also helped Haiti increase agricultural 
productivity by introducing improved seeds, fertilizer, and 
technologies to more than 70,000 farmers, which have helped increase 
yields for rice, corn, bean, and plantain crops as well as increase 
mango exports by 175 percent. Our funding has placed over 33,000 
hectares of hillside farmland under improved watershed management.
    The United States has funded the rehabilitation and upgrading of 
five electrical substations in Port-au-Prince, and the construction of 
a 10-megawatt power plant to serve the Caracol Industrial Park and 
8,000 local households and businesses in Haiti's north. Primary school 
enrollment is up, with the United States funding the construction of 
more than 600 semipermanent furnished classrooms, enabling over 60,000 
children to return to school. We have helped more than 100,000 
households and businesses convert from charcoal to more efficient cook 
stoves, and supported the planting of 5 million fruit and forest tree 
seedlings.
    Consistent with Haitian priorities to promote economic growth 
outside of Port-au-Prince, the United States has targeted some of its 
most significant assistance to one of Haiti's poorest regions in the 
North. The Caracol Industrial Park is a public-private partnership that 
is funded by the Inter-American Development Bank and is owned by the 
Government of Haiti. Conceived as a long-term public-private 
investment, Caracol will require time and continued support to reach 
its full potential. As of July 2015, however, in just 3 years of 
operation, approximately 7,500 jobs have been created at the Caracol 
Industrial Park. More jobs are expected as facilities expand. Anchor 
tenant Sae-A is projected to eventually create 20,000 jobs, and the 
Haitian-owned Coles Group has announced it will create 2,500 jobs at 
Caracol once further phases of construction are completed.
    The United States is also working in partnership with the 
Government of Haiti to help improve judicial and police institutions, 
and enhance citizen security for all Haitians. Since the earthquake our 
assistance has made possible the training and commissioning of 3,300 
new officers in the Haitian National Police (HNP). We have helped 
create a new HNP community policing unit, which has grown to over 80 
officers, in partnership with the New York City Police Department and 
the U.N. Stabilization Mission in Haiti (MINUSTAH). The United States 
has also helped fund the reconstruction of more than 32,000 judicial 
case files following earthquake loss or damage. We have trained over 
2,700 justice sector actors on basic and advanced criminal justice 
skills to improve their ability to investigate, prosecute, and 
adjudicate criminal cases. Security in Haiti has significantly 
improved--violent crime rates, in particular kidnappings, are down 
dramatically compared to past years.
    We are also following closely the situation along Haiti's border 
with the Dominican Republic. We are concerned by reports that tens of 
thousands of people, mostly Haitians and people of Haitian descent, 
have crossed the border from the Dominican Republic into Haiti since 
early June. We are monitoring the situation closely and actively 
engaging with the Government of the Dominican Republic, the Government 
of Haiti, the United Nations High Commissioner for Refugees, civil 
society organizations, and the international community to confirm that 
the appropriate authorities work to ensure security and the protection 
of human rights. The United States is also funding civil society 
organizations and international organizations, including the 
International Organization for Migration (IOM), to assist in these 
efforts. We continue to encourage the Governments of the Dominican 
Republic and Haiti to consult and collaborate with each other and with 
civil society groups and international organizations to develop 
processes that uphold the rule of law, provide procedural safeguards, 
and are consistent with each country's international obligations and 
commitments.
    It is up to the Haitians themselves to secure and build on these 
accomplishments. We can advise and assist, but Haiti's development must 
reflect goals and priorities that the government and people of Haiti 
have identified, and for which they are exercising ownership. The 
confidence of the Haitian people in their government will in large part 
depend on its effectiveness in delivering basic services. Capacity-
building and effective governance are thus central to sustaining 
Haiti's progress. This will require responsive, accountable, and 
transparent institutions; the just application of the rule of law; new 
laws and changes in existing ones to attract investment; and a fully 
staffed and functioning government in every branch. Haiti's leaders 
must strive for a political, economic, and societal climate that 
fosters economic development and prosperity. An indispensable step for 
this involves the holding of successful parliamentary, local 
government, and Presidential elections.
    The United States strongly supports the right of all Haitians to go 
to the polls in a timely manner to express their views through a 
credible and transparent process. Congress shares this goal with the 
administration, and I thank you for consistently emphasizing the 
importance of Haitians voicing their democratic preferences at the 
ballot box.
    The United States commends Haitian President Michel Martelly and 
the members of Haiti's independent Provisional Electoral Council (CEP) 
for their efforts to prioritize the holding of elections this year. We 
are pleased that an electoral decree and calendar have been published, 
and we are committed to working with the Government of Haiti and its 
international partners to facilitate appropriate assistance--including 
international observation--to help ensure that the elections are 
inclusive, transparent and credible. As electoral planning continues, 
the United States supports the CEP, the United Nations, the OAS and the 
Government of Haiti (including its national police) in their efforts to 
coordinate and execute successful 2015 elections. We encourage all 
actors to participate fully in the electoral process, to abide by the 
rule of law, and to adhere to accepted standards of transparency. Let 
me stress that the United States has no vote in these elections and 
does not support any candidate or group of candidates.
    Successful elections have the potential to break the political 
gridlock that has imposed opportunity costs on the people of Haiti. The 
impasse between Haiti's executive and legislative branches has stymied 
the passage of legislation in such important areas as an updated 
business code, an updated criminal code, clarification of property 
rights, and the provision of electronic signatures. Progress in these 
areas would strengthen investor confidence and help Haiti strengthen, 
expand, and diversify its economy. Without a doubt, no long-term 
development goals in Haiti can be sustained or fully realized without 
the engagement and support of the private sector.
    Successful elections thus are understandably the highest priority 
of our near term engagement with Haiti. The citizens of Haiti choosing 
their leaders and representatives through fair, democratic means 
directly reinforces our goal of fostering good governance.
    I have been describing the progress that U.S. assistance has helped 
Haiti achieve in its effort to rebuild. But I do not mean to minimize 
the challenges still ahead. To be sure, it will take many more years to 
make the kinds of far-reaching and lasting improvements we all wish to 
see in Haiti. The past 5 years have been marked by measurable 
improvements in the lives of Haitians and genuine accomplishments in 
Haiti's recovery and development. We must maintain an open and frank 
dialogue with the Haitian people and their leaders, and focus on how we 
can help the country's institutions build capacity to be effective 
providers of basic services. Much will depend on building political 
stability through successful democratic elections. But I continue to 
believe that, through our long-term commitment, the United States is 
helping Haitians achieve a better future.

    Senator Rubio. Thank you, Mr. Adams.
    We will now begin our questions. I am going to defer 
opening questions to Senator Perdue, who needs to go preside 
over the Senate.
    Senator Perdue. Thank you very much, Mr. Chairman.
    Mr. Adams, thank you for being here. I really appreciate 
the chairman and the ranking member holding this hearing.
    Haiti holds a special place in my heart. I worked in 
Hispaniola since the early 1970s, and I have seen the progress 
of one country, the Dominican Republic, and the not so much 
progress of the country across the mountains, what we are here 
to talk about today, Haiti.
    I apologize for having to leave but I have to preside, as 
the Senator just said.
    After I was elected last year, I went on a mission trip to 
Haiti to a place called Grand Goave, about 45 miles west of 
Port-au-Prince. It is an orphanage housing a little over 250 
orphans there run by the Good Samaritan Project. And those 
people are doing fantastic work down there, as you guys are. I 
am proud of Georgia-based churches, such as Rock Springs Church 
and a few others, that are very actively supporting that work.
    Since the 2010 earthquake, I am proud of the United States 
response in Haiti. We are one of the most philanthropic 
countries in the world. And we see the effect of that 
philanthropy, even though we may not have hit all our goals, 
there is much progress that has been made in Haiti. I 
personally witnessed that. Four billion dollars is a lot of 
money and you can see the results of that.
    However, after 5 years, many of these children are still 
living in tents. In Grad Goave, their dormitory, their church, 
their school, were destroyed, and no injuries and no 
fatalities, thank God. But 5 years later, these children are 
still eating on the ground. They are still sleeping in tents. 
The church has been rebuilt. And we are working hard.
    I appreciate your efforts there. But I really believe there 
is a lot yet to be done, and we need to make sure that our 
money is being effective.
    The second thing is, I am very concerned, as we have 
already heard, and I am sure there will be further questions 
about the political environment and the free elections, so my 
sincere admonition and encouragement is to make sure that we 
get to a point of good governance there, that corruption is 
dealt with, and that our aid money that is going in there 
really gets to the people that we are trying to help.
    I have a letter to President Obama, along with others, 
asking that we work with international community to make sure 
that these elections are held in a free and fair manner. I 
would like to ask my colleagues here today in joining me in 
that endeavor.
    I want to thank you and the State Department. The State 
Department personnel, our military personnel, were some of the 
first people on the ground after the earthquake. Our Navy 
hospital ship does not get enough credit for what it did there.
    We see the aftermath. People really came up to me in the 
streets of Haiti, Port-au-Prince, and talked to us about a 
relative or whatever that spent weeks in the Navy hospital ship 
and now are fully recovered. So thank you for all your work 
down there.
    Mr. Chairman, thank you for your forbearance.
    Senator Rubio. Thank you very much.
    Senator Boxer, I will go first?
    Mr. Adams, let me ask you, does the administration believe 
that President Martelly is capable of administrating free and 
fair elections for the Haitian people? And do you believe that 
he will step aside after the next President of Haiti is 
elected?
    Mr. Adams. Thank you. That is a very good question.
    The holding of elections under the Haitian Constitution 
really falls to an independent electoral commission, and they 
got started late because of political gridlock, and they are 
playing a little catchup. But I think they are on track to hold 
the first round of elections on August 9. And we are, 
certainly, supporting them in that effort.
    President Martelly, I go down to Haiti once or twice a 
month, I see him. I spend a lot of time with him. I think he is 
deeply committed as part of his legacy to having free and fair 
elections. And he wants to have them, and he wants to leave in 
February. He has told me that on numerous occasions. So I think 
the answer to that is yes.
    But again, there could be some bumps in the road on getting 
everything done in time to have the election. But so far, they 
are on track. They are doing better, frankly, than I expected.
    Senator Rubio. Just last month, ProPublica's investigation 
revealed that the Red Cross built exactly six homes in Haiti 
with nearly $0.5 billion. This is disturbing news, and it 
highlights the fact that hundreds of millions of dollars in 
humanitarian aid is simply not reaching its intended target, 
the most vulnerable people in Haiti.
    In addition, there have been numerous accusations that 
U.S.-based NGOs, nongovernmental organizations, have received 
large donations from the American people, but have failed to 
transparently administer aid to the Haitian people.
    So let me ask, are you satisfied that both the U.S. 
Government assistance and private efforts such as those led by 
the Red Cross are achieving their intended goals of assisting 
the Haitian people?
    Mr. Adams. As I said in my opening statement, it is not 
easy to get things done in Haiti. We had more ambitious plans 
to directly build houses than we were able to carry out for a 
number of reasons. Red Cross has faced similar efforts.
    We partner with the Red Cross in a number of areas, and one 
of the ways we are partnering is, just north of Haiti, there is 
a huge expanse of land where 150,000 Haitians, who were 
originally squatting in areas called Canaan and Jerusalem, are 
building their own houses kind of willy-nilly. And the 
Government of Haiti about a year ago asked us to get involved 
in that, to make sure that these houses were built earthquake- 
and hurricane-resistant, and space was left for schools, 
sanitation, police stations.
    We changed our program to support the Haitians in building 
their own houses. The Red Cross has joined us and pledged $20 
million. They are there now paving roads.
    So I think I am not going to judge the Red Cross or others, 
but I think there are two sides to every story in Haiti. And 
again, I would listen to both sides before condemning anyone.
    Senator Rubio. Earlier this year, Senator Shaheen and I 
authored the Girls Count Act, which directs current U.S. 
foreign aid to assist with providing birth certificates in 
developing countries. Although Haiti has a birth registration 
rate that exceeds 60 percent, according to UNICEF, there is 
still a clear disparity in registration status between the poor 
and wealthy, leaving the most vulnerable susceptible to 
exploitation, such as human trafficking.
    Since the passage and signing of that bill, or just 
overall, what is our Government doing to address or to help the 
Haitian Government address this gap in birth registration?
    Mr. Adams. We pioneered the modern biometric ID cards for 
all Haitians and related birth documents years ago through 
USAID. The Government of Canada took on the next tranche. And 
at the time of the last election, 90 percent of Haitian adults 
had biometric documents.
    The Canadians were willing to extend the program to get the 
10 percent missing and to do a better job with children and 
others. But in the middle of that, the Haitians announced that 
they had received an offer from Venezuela to do it with $96 
million and they were going to go with the Venezuelans. The 
Venezuelan money never showed up. So there is some lag now.
    We have been working with the Haitians, with the European 
Union and others, to provide funding to restart the 
registration, particularly in preparation for elections.
    But you are right, this has lagged behind for the reasons I 
cited.
    Senator Rubio. Mr. Adams, since you were named the Haiti 
special coordinator in 2010, Haiti has begun to recover from 
that catastrophic earthquake. They have undergone a political 
upheaval, and they now face the possible mass migration of 
thousands of Haitian descent people.
    Does the administration have a comprehensive policy toward 
Haiti with regard to the upcoming elections as well as the 
monitoring and evaluation of USAID for earthquake relief?
    Mr. Adams. Yes, in Haiti, USAID has a five-person inspector 
general office. We do a lot of monitoring and evaluation down 
there. We get regular GAO reports, which I know you are 
familiar with.
    And we make mistakes, and we fix them. I think USAID has 
been very candid about that. Again, we start down some roads, 
and they just do not pan out, and we have to change direction.
    So I think there is monitoring and evaluation. We do not do 
government-to-government assistance with the Government of 
Haiti because we do not trust their transparency and 
accountability systems, although they have been improving those 
with our assistance. I think they will get there eventually.
    Senator Rubio. Finally, can you provide us with an update 
on the current situation regarding possible mass migration of 
Haitians and Dominicans of Haitian descent? I know it has been 
in the news lately in South Florida and across the country.
    Mr. Adams. Yes, it certainly has been. I know I have been 
engaged. I went about 3 months ago to the Dominican Republic 
with Counselor Shannon and met with President Medina and 
Foreign Minister Navarro. I have met with him several times 
here.
    I think our quiet diplomacy has actually pushed this in a 
good direction. I think the Dominicans have rethought their 
original strategies. They have assured us that there will be no 
mass deportations, and none have begun yet. There have been 
some self-deportations.
    If you ever been on the border with the Dominican Republic, 
it is very porous. There are four major border-crossing points, 
but there are 59 informal crossing points, and people go back 
and forth all day. Some Haitians walk to work in the D.R. in 
the morning and come back.
    So one of the areas we are trying to improve on is getting 
better data from what is really going on at the border because 
you get a lot of wild stories sometimes and when we investigate 
them, they do not turn out to be true.
    Right now, there was a report I saw today from the U.N., 
saying they think only about 19,000 Haitians have self-
deported, at this point in time. There were reports of others 
that when they investigated, they found that they were not 
really deportees.
    So we continue to monitor this very carefully. We engage 
with the Dominicans regularly on this. Our terrific Ambassador 
in the Dominican Republic, Wally Brewster, has been very 
effective in this regard. Secretary Kerry has called President 
Medina on this.
    So we remain engaged, and we are watching this. And again, 
I think it is going in the right direction, but we have to keep 
on top of it.
    Senator Rubio. Thank you.
    Senator Boxer.
    Senator Boxer. Thanks, Mr. Chairman.
    In its 2014 country report on Haiti, Human Rights Watch 
highlighted the ongoing use of child domestic workers. These 
children, the majority of whom are girls, are sent to live with 
wealthier families in the hope that they will be cared for and 
provided with an education in exchange for light housework. 
However, it is often not the case, according to this report, as 
the children are often unpaid, denied education, and shockingly 
even abused.
    According to Human Rights Watch, most of Haiti's 
trafficking cases are children for these domestic jobs. By some 
estimates are over 200,000 children--200,000--are involved in 
this type of work despite the passage of a law that outlaws 
many forms of trafficking, including hosting a child for the 
purpose of exploitation.
    Can you tell us how the Haitian Government is enforcing 
this law, if at all? And do we need to launch a broader effort, 
because this is completely unacceptable? We are giving the 
government money, and this is a situation that is deplorable.
    Mr. Adams. Thank you for that question.
    The basic reason for trafficking and for the rest of the 
system in Haiti is poverty. As you know, it leaves families 
with poor choices. And addressing poverty is really the main 
key to dealing with this.
    The Government of Haiti has taken some critical steps to 
combat trafficking in persons, including the passage of 
landmark antitrafficking in persons legislation in June 2014 
that had languished in Parliament since 2010. Since this 
legislation was published, the Government of Haiti has reported 
four investigations and prosecuted two suspects. It is a start.
    The GOH also developed a new antitrafficking plan for the 
period of March 2015 to December 2017 that comprises a 
multisectoral and whole-of-government approach to addressing 
trafficking in persons. The interagency effort to formalize the 
victim identification and referral guidelines has, like other 
priorities, slowed due to protracted political impasse over 
scheduling of overdue elections and the subsequent December 
2014 resignation of Prime Minister Lamothe and his Cabinet. 
Also, weaknesses, not specific to the trafficking in persons 
issue, including the weak state of the judiciary and a lack of 
funding for GOH agencies, remain concerns.
    Despite these challenges, we are encouraged by GOH actions 
on investigations and prosecutions and anticipate that they 
will initiate more in the coming year.
    The Government of Haiti's overall response to human 
trafficking has become increasingly strategic by targeting the 
linkages between extreme poverty in Haiti and the 
susceptibility to exploitation. Through the government's free 
universal education and social programs, which have impacted 
4.5 million Haitians to date, and the government's increased 
focus on both the availability and quality of accommodation 
centers receiving vulnerable and at-risk children, Haiti is 
making, I think, significant efforts to reduce the incidence 
and perceived social acceptance of human trafficking.
    We are working closely with the Haitian Government to 
improve Haiti's judicial framework as part of a longer term 
solution. And again, the legislation was a key element of that, 
and particularly out of a Parliament that----
    Senator Boxer. I want to follow up, because I do not have a 
lot of time.
    Mr. Adams. No, go ahead. I will stop there. But I think 
there----
    Senator Boxer. I appreciate it. Well, let me just say, 
there are 200,000 children, Mr. Chairman, who are in this 
situation, and they are working for wealthier people.
    That is my understanding. That is how it was reported.
    So this has nothing to do with poverty here. Poverty is the 
fact that the parents are saying go work for these people. 
These people have no right to hurt a child.
    So your point that there are two prosecutions since 2014 
and that is a start, I do not think so. I think that is show. I 
think this is awful.
    I do not know, I want to work with my chairman on this, 
because it sounds like you are making an excuse. Oh, the 
problem is poverty. No, the problem is with the rich people who 
are hurting these children, and they need to stop.
    The poverty part of it is horrible, that a parent has to 
give up a child to a circumstance like this, yes. But the fact 
that they are going to a wealthier home with a promise of a 
better life, that is where the prosecutions have to happen.
    So I am not sanguine about this, and I do not think that 
your response, in all due respect, I mean, I know you are 
measured about it, it just does not match the crime. If I knew 
that there were 200,000 American kids in as bad of 
circumstances, and quite a lot of them are getting harmed, with 
two prosecutions, I would go get myself a different attorney 
general.
    Let me just ask you, on the upcoming legislative and 
Presidential elections in August and October, we all agree it 
is an important opportunity. Do you believe these elections 
will occur as scheduled?
    Mr. Adams. I think there is a fairly good chance they will. 
There are, as I said, a few issues left. One is the lack of 
funding. Tomorrow at the U.N., I am going up for a donor 
conference to try to get some more money. We are, certainly, 
going to put in money, pledge more money for elections.
    Senator Boxer. How much is needed?
    Mr. Adams. Well, that gap is about $50 million for three 
rounds.
    Senator Boxer. How many people live in Haiti?
    Mr. Adams. Some estimates are recently 11 million. No one 
knows for sure. There has not been a census lately. But 11 
million is a good----
    Senator Boxer. Any need $50 million to pull off----
    Mr. Adams. Yes, these are very----
    Senator Boxer. For 11 million people?
    Mr. Adams. These are elections for every political office 
in Haiti, and the Haitians design them so that every Haitian 
can walk to a nearby voting center. They have hundreds of 
voting centers, thousands, actually.
    Senator Boxer. That is good if they have the election.
    Mr. Adams. We are working very hard, and we have been 
working very hard, to ensure it happens.
    Senator Boxer. Good. All right, thank you.
    Mr. Adams. Thank you, Senator.
    Senator Rubio. Just to follow up on the issue with children 
who are basically put into homes to work, the situation that 
Senator Boxer has outlined, is there not a sort of societal 
and/or cultural issue here as well? In essence, that has been 
acceptable practice for a long time. And is there not a role to 
help change that thinking, because when I visited Haiti and in 
interacting with the Haitian-American community, you hear a lot 
about how this is a practice that has been going on for years. 
Is there not something we can do to explain to parents--number 
one, giving them options not to have to do that. But, second, 
that this is, in fact, not something good that they are doing?
    Mr. Adams. In fact, we have done a lot. The initial 
supplemental appropriation for Haiti had $5 million in it to 
combat this problem. And we made grants to a number of civil 
society programs to raise awareness of the predicament of 
thousands of children, mostly girls, in forced domestic 
servitude.
    Our Office to Monitor and Combat Trafficking in Persons has 
dedicated $3.75 million in new grants, which is a lot for them, 
as you probably know, to strengthen Haitian institutional and 
civil society capacity to identify and respond to human 
trafficking.
    Funds are focused on prevention and protection programs for 
victims of trafficking and sexual or gender-based violence, and 
on supporting investigations and prosecutions of those cases. 
We have also worked with the U.N. on this. We have instituted 
in the police-training curriculum programs on gender-based 
sexual violence to combat this.
    So we have taken a very active role in trying to combat 
both the societal image of this and the actual----
    Senator Rubio. Related to that question, there was a series 
of reports done a few years ago--the Miami Herald did one of 
them--about the existence of child brothels in the border 
region with the Dominican Republic.
    What is the situation in Haiti today with regards to 
children being trafficked into prostitution? You alluded to 
that briefly in your comments. How would you describe that 
situation today versus 5 years ago?
    Mr. Adams. Well, as I said, the border is fairly porous and 
unregulated, and there are reports of people crossing the 
border with children. Again, our training has helped the 
Haitian National Police on the border, the U.N. troops on the 
border, to stop and question these people. But it still happens 
far too often.
    And again, there need to be more prosecutions on this, as 
Senator Boxer has suggested.
    Senator Rubio. You talked a little bit about the law 
enforcement work. United Nations Stabilization Mission, its 
mandate expires in October. Is that correct?
    Mr. Adams. Its mandate expires every year in October.
    Senator Rubio. But there has already begun to be some sort 
of drawdown on its resources?
    Mr. Adams. Yes, the mandate that was approved last year, 
last October, cut the military component in half. So at this 
election, there will be about 2,500 troops and about 2,500 
international police, about 5,000 soldiers and police there.
    Senator Rubio. As that drawdown continues to happen, do you 
believe at this point the Haitian National Police will be able 
to provide internal security without the continuing same level 
of assistance from the United Nations?
    Mr. Adams. Well, the Haitian National Police have greatly 
improved, thanks a lot to our funding of their training and 
other support.
    The main problem is the country of Haiti's size should have 
about 30,000 police. The Haitian National Police, as good as 
they are, have about 12,000 right now, and the balance of U.N. 
troops have to make it up. So it is under-policed.
    We have supported them in getting ready for this election. 
We made some money available so that they could get their 
vehicles in order and other things. Again, I think with a good 
security plan, they can pull off the elections.
    Senator Rubio. Finally, you earlier mentioned Venezuela's 
offer, which never came to fruition, to help them with some of 
their identification systems. Is Venezuela playing any role in 
helping them conduct these elections?
    Mr. Adams. They have mentioned they might. I think they 
might make a pledge tomorrow to support the elections 
financially.
    Senator Rubio. Will they be involved beyond that, in terms 
of the actual----
    Mr. Adams. No.
    Senator Rubio. Because the Venezuelan Government, the 
current government there, is not very good at free and fair 
elections.
    Mr. Adams. As I understand, yes, sir.
    Senator Rubio. Thank you.
    Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    Thank you for your time and testimony today.
    I know you briefly discussed in your comments and your 
remarks, but could you talk a little bit about efforts when it 
comes to transparency and reforms to end corruption?
    Mr. Adams. I would be glad to. Corruption is a huge problem 
in Haiti, both the perception and reality of corruption are 
very high in Haiti. And their own government accounting systems 
are not very transparent.
    There is an effort underway, spearheaded by the 
International Monetary Fund, to establish single-payer accounts 
in each ministry, which are really three accounts. But right 
now Haiti started out with over 500 bank accounts for the 
government that were poorly policed.
    Senator Gardner. What types of accounts are you talking 
about?
    Mr. Adams. Bank accounts for projects. I mean, just not 
very well organized, frankly. Prime Minister Lamothe agreed 
with us to do something about this. He got the ministries 
together. We have a Treasury adviser working on this, along 
with the IMF, to reduce the accounts and to set up accounting 
units in each ministry. That is going pretty well.
    There has been real progress there, and I think they may 
reach the point when we could consider government-to-government 
assistance. And it is important for the Haitians, because they 
do get budget support from other countries, not just the United 
States. And that budget support is contingent upon meeting IMF 
benchmarks. If they do not meet them, and the IMF program ends, 
so will a lot the cash support they get from other governments. 
So Haiti has an incentive to do this.
    Senator Gardner. When did those efforts start, the efforts 
you are talking about? How long ago?
    Mr. Adams. I discussed this with the Prime Minister about 2 
years ago. We would have donor meetings, and they would 
complain that we did not give money directly to the government. 
We would complain that their systems were not very transparent, 
frankly. And I said, let us quit fighting and do something 
about it. Donors will support you in setting up accounting 
systems and in coming up with more of a system.
    They have kept their word. At times, this has stalled 
because there are a lot of people who do not want to see this. 
At critical times, the Prime Minister came in and got the 
ministries together and said do it. They are continuing now 
through the Ministry of Finance.
    Senator Gardner. What happens with reforms with the 
election coming up?
    Mr. Adams. Well, I think we would like the election to 
break political gridlock and accelerate reforms. Haiti needs 
lots of new laws. They have a lot of antiquated laws. They need 
a lot of things that will make that country more attractive to 
investment.
    While we have the HELP and HOPE Act that does that, there 
is not enough foreign aid or remittances to fix Haiti. If Haiti 
cannot attract more foreign investment, it is going to be the 
same old story.
    There has been good economic growth in Haiti since the 
earthquake. Before the earthquake, 4 years before the 
earthquake, there was a negative growth rate, slightly 
negative. It has been about 3 percent or 4 percent since then. 
But it needs to be 7 percent to eradicate poverty.
    For that to happen, they have to really fix a lot of their 
institutions, their judicial system, and pass a raft of 
modernizing laws, and cleanup corruption. And if they do that, 
I think they will get the foreign direct investment that will 
ultimately solve their economic problems.
    Senator Gardner. You mentioned the judicial system. Is 
there continued interference from the executive branch in 
judicial issues?
    Mr. Adams. Well, the Parliament passed an amendment to 
their constitution in 2012 that set up an independent 
judiciary. The President had to promulgate it, which he did. 
That Superior Council of the Judiciary is supposed to vet the 
judges, get rid of the corrupt ones, get rid of the ones who do 
not even have law degrees, of which there are a number, and 
reform the judiciary.
    We have supported their work for the past 2 years, but we 
are getting a little impatient at seeing the results of their 
work and have said if we do not see some results soon, we 
cannot justify continued taxpayer assistant to the reform of 
the judiciary. So we want to see them actually do their 
vetting.
    Senator Gardner. Thank you, Mr. Chairman.
    Senator Rubio. Thank you.
    I have no further questions. I do not know if the ranking 
member does. If not, I just want to begin by thanking you. We 
are going to have some votes here in a few minutes, and then we 
have another hearing immediately following on some nominations. 
But again, I want to thank you for appearing before us today. 
This is an important issue, particularly to those of us who 
live in Florida. It impacts us directly.
    The United States, as outlined in your testimony and in 
some of our opening statements, has made a significant 
investment in helping the people of Haiti turn their country 
around. We remain hopeful and optimistic, with some real 
challenges.
    But we want to thank you for your service to our country 
and your service to Haiti, and what you are doing.
    And with that, the record is going to remain open until the 
close of business on Friday, July 17.
    And with that, the hearing is adjourned.
    [Whereupon, at 3:16 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


               Responses of Thomas C. Adams to Questions 
                    Submitted by Senator Bob Corker

    Question. After years of deadlock, Haiti's Government appears to be 
committed to organizing elections. Are they really? Is it true that, as 
of June 9, 2015, funding was still about 40 percent short of the 
estimated $66 million needed for the Haitian elections? What is the 
Government of Haiti doing to fill that gap? What are you doing?

    Answer. The Government of Haiti is moving forward with three rounds 
of elections, on August 9, October 25, and December 27, of this 
calendar year. Due to political gridlock which delayed elections for 
almost 4 years, Haiti's independent Provisional Electoral Commission 
(CEP) only began work on the elections in January of this year. There 
have been concerns regarding preparations for the first round on August 
9, including delays in finalizing the list of 1,508 polling centers, 
the 13,725 polling stations and the voters assigned to each one, as 
well as in hiring and training polling station and security staff. 
However, the CEP provided the data needed for printing of the ballots 
and voter registration lists and its President, Pierre-Louis Opont, has 
said there will be no delay in the first round of parliamentary 
elections.
    With regard to the shortage of funds for the elections, both in the 
basket fund administered by the U.N. Development Programme (UNDP) for 
election commission operations and for elections transportation and 
logistics, at a donor conference at the United Nations in New York on 
July 16, 2015, an additional $14.2 million in elections funding was 
committed by the United States, Canada, Brazil, Norway, and Mexico. 
Several other countries that did not make pledges at the conference 
indicated they were considering additional donations. The U.S. pledge 
was for $9 million, of which $4 million is to the United Nations for 
logistical support which had been provided by the U.N. peacekeeping 
mission (MINUSTAH) in the last election, and $5 million is for 
additional elections support to the UNDP basket fund. This raises the 
total amount of funding the U.S. has dedicated to these elections to 
$28.8 million, of which $6.5 million went to the UNDP basket. The 
Government of Haiti has said it will cover any funding requirements for 
the elections that are not covered by donor funding, including security 
costs of deploying the Haitian National Police.

    Question. Some 70 individuals registered to run for President, 56 
are slated to be on the ballot--a challenge for Haiti's voters. Yet, 
some serious candidates were excluded. Why? Was this the price of 
preventing unrest from certain sectors?

    Answer. Haiti's Constitution levies a number of requirements on any 
candidate for President, requirements the CEP must certify have been 
met before placing a candidate on the ballot. Any candidate that has 
held public office and been entrusted with the handling of government 
funds must undergo an audit from Haiti's supreme audit agency to make 
sure that government funds entrusted to his or her organization were 
spent for the purposes intended. The results of that audit must be 
presented to Parliament, which must vote on a discharge allowing that 
candidate to be placed on the ballot. With Haiti's Parliament defunct 
due to the expiration of terms, the only way for candidates to obtain 
required discharges would be for President Martelly to decree them. He 
has chosen not to do so. Nearly all Presidential candidates excluded 
from the ballot by the CEP, including former Prime Minister Laurent 
Lamothe, failed to get the appropriate discharge. These candidates came 
from all sides of the political spectrum, indicating CEP efforts to 
follow the law impartially.

    Question. The Assessing Progress in Haiti Act of 2014 required a 3-
year Haiti strategy based on rigorous assessments. In response, the 
State Department submitted an update of your 2011 strategy. Can you 
please respond to the following questions?
    The strategy required ``an action plan that outlines policy tools, 
technical assistance, and anticipated resources for addressing the 
highest-priority constraints to economic growth and the consolidation 
of democracy, as well as a specific description of mechanisms for 
monitoring and evaluating progress.''

  <diamond> Have you submitted such an action plan with budget 
        requirements, and monitoring and evaluation mechanisms to 
        Congress?

    Answer. The post-earthquake strategy adopted by the U.S. Government 
in January 2011 continues to guide our overall approach to development 
assistance for Haiti, subject to fine-tuning on the basis of subsequent 
information and lessons learned. The 3-year extension of the strategy 
built on that original document, with necessary adjustments where 
changed circumstances or reassessments called for revisions. The report 
that accompanied the 3-year strategy extension submitted in February 
2105 is intended to explain those adjustments.
    We agree that it is important to monitor progress toward the 
strategy's goals, and the 2014 Assessing Progress in Haiti Act Report 
included among its attachments a List of Indicators describing 
benchmarks. Those indicators will be updated in the subsequent annual 
versions of the report. USAID's monitoring and evaluation efforts in 
Haiti are complemented by regular oversight by a USAID Regional 
Inspector General team and USAID works with the GAO on independent 
audits of programs. We continue to submit spend plans and congressional 
budget notifications as appropriate regarding funding for the 
activities in the strategy.

    Question. Similarly, the strategy required the identification of 
specific goals for future United States support for efforts to build 
the capacity of the Government of Haiti to, among other matters, reduce 
corruption. The word ``corruption'' is mentioned once in the strategy 
document submitted by the State Department. How do you plan to fulfill 
this requirement?

    Answer. Official corruption remains a serious problem in Haiti. 
While some progress has been made, much more needs to be done.
    We are supporting anticorruption efforts in a number of ways. In 
2014, USAID supported advocacy efforts that led to the adoption by 
Parliament of the legislation pertaining to the ``Prevention and 
Repression of Corruption.'' This legislation is an important step 
toward addressing corruption at all levels, including penalizing common 
corrupt practices such as conflicts of interest in the award of 
contracts, nepotism, extortion, and secret funding of political 
parties. The U.S. and other major donors are supporting an effort to 
make Government of Haiti financial processes more transparent and 
accountable through the establishment of a single payer account and an 
audit body in each ministry to ensure transparency and check to see 
that government funds are spent for the purposes intended. The U.S. is 
providing a U.S. Treasury advisor to that effort, which is spearheaded 
by the International Monetary Fund. This effort is making progress, and 
we continue to actively engage the government to promote enhanced 
fiscal and governmental transparency.
    We are also supporting the reform of Haiti's judiciary with 
assistance to the Judicial Inspection Unit (JIU) of the Superior 
Council of the Judiciary in its plan to place inspectors in each of the 
five courts of appeal to manage and monitor the judges within their 
jurisdictions. This work will institutionalize JIU oversight by 
effectively managing and monitoring judges to help create a more 
efficient and accountable judicial process. An additional program 
provides training on investigation techniques, pretrial preparations, 
and defending/prosecuting a suspect during trial for judges, police, 
and prosecutors. This program has reached 2,392 justice sector actors 
and includes specialized trainings on issues such as investigating and 
prosecuting perpetrators of transnational crimes including 
anticorruption and money laundering.
    Finally, we have authority to refuse visas to Haitian officials for 
involvement in significant corruption pursuant to Presidential 
Proclamation 7750 and Section 7031(c) of the FY 2015 Department of 
State, Foreign Operations, and Related Programs Appropriations Act.
                                 ______
                                 

    Letter From Frederica S. Wilson Submitted by Senator Marco Rubio
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                  <all>
</pre></body></html>
